Report No. D-2011-065                            July 22, 2011




       Project to Repair Nutrition Care Division at Fort
       Carson, Colorado, Generally Complied with the
          American Recovery and Reinvestment Act
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations

FAR                           Federal Acquisition Regulation
FSRM                          Facilities Sustainment, Restoration, & Modernization
OMB                           Office of Management and Budget
QMAD                          Quantitative Methods and Analysis Division
USACE                         U.S. Army Corps of Engineers
                                                                              July 22, 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)
               COMMANDING GENERAL, U.S. ARMY CORPS OF
                 ENGINEERS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Project to Repair Nutrition Care Division at Fort Carson, Colorado,
         Generally Complied With the American Recovery and Reinvestment Act
         (Report No. D-2011-065)

We reviewed the planning, funding, initial execution, and tracking and reporting phases
of the Repair Nutrition Care Division project, valued at $11.55 million. Specifically, we
determined whether personnel at Fort Carson, Colorado, and the U.S. Army Corps of
Engineers (USACE) Engineering and Support Center in Huntsville, Alabama, complied
with Public Law 111-5, “American Recovery and Reinvestment Act of 2009,” (Recovery
Act), February 17, 2009, Office of Management and Budget Memorandum (OMB) M-09­
10, “Initial Implementing Guidance for the American Recovery and Reinvestment Act
of 2009,” February 18, 2009; and subsequent related guidance. The project will renovate
the kitchen and dining areas (including the repair of ceilings, floors and walls, doors and
hardware, mechanical, plumbing, and electrical systems) in the Nutritional Care Division.

Fort Carson’s Facilities Management Branch personnel appropriately documented the
requirement for the Repair Nutritional Care Division project; however, they and USACE,
Huntsville Center personnel could not provide documentation supporting the estimated
project cost. But, the risk of the unsupported cost estimate was mitigated by competing
the task order on a firm-fixed-price basis. USACE, Huntsville Center personnel received
Recovery Act funds in a manner consistent with OMB’s guidance. Additionally,
USACE, Huntsville Center personnel ensured that contracting actions for the project met
the Recovery Act’s requirements and had procedures to track the reporting of project
information.

Planning Generally Adequate
Facilities Management Branch personnel appropriately documented the requirement for
the Repair Nutritional Care Division project. Facilities Management Branch personnel
provided planning documents stating that Evans Army Community Hospital, Fort Carson,
was constructed in 1986. The planning documents revealed that there were no significant
repairs/renovations to the hospital since its construction. The documents stated that if the
Repair Nutrition Care Division project is not completed, the buildings systems will
continue to deteriorate and will eventually fail to support the nutrition care operations,
resulting in a negative impact on the mission at Evans Army Community Hospital. We
reviewed documents supporting the project’s requirements and toured the dining facility
to inspect areas identified for repairs/renovations. Based on our review of the planning

                                             1

documents and our onsite observations, we determined that the Repair Nutrition Care
Division project is a valid requirement and supports the health care needs of the
beneficiary population at Fort Carson.

Although the requirements were appropriately documented, Facilities Management
Branch and USACE, Huntsville Center personnel could not provide documentation
supporting the estimated project cost. The “American Recovery and Reinvestment Act
of 2009, Department of Defense Facilities Sustainment, Restoration, & Modernization
(FSRM) Program Plan,” May 15, 2009, included an estimated cost of $11.55 million for
the Repair Nutrition Care Division project. Facilities Management Branch personnel
provided a DD Form 1391, “Military Construction Project Data,” approved on
April 3, 2009, as support for the project estimate. Although the DD Form 1391 helped
support the requirement for the project, the cost estimates totaling $13.6 million did not
agree with the $11.55 million listed in the FSRM Program Plan. Facilities Management
Branch personnel explained that support for the $11.55 million cost estimate was based
on budgetary cost estimates developed under a design contract that covered multiple
hospital projects. Global Engineering & Construction, LLC, personnel completed the
design contract before the Recovery Act; however, the Facilities Management Branch
personnel could not provide a copy of the budgetary cost estimates. Also, personnel at
the USACE, Huntsville Center, the center that administered the design contract, could not
provide the cost estimates. As a result, we could not validate the project cost estimate
included in the FSRM Program Plan.

Subsequent to the issuance of the FSRM Program Plan, but before contract actions.
USACE, Huntsville Center personnel developed an independent government estimate of
about $7.6 million. According to FAR clause 15.305-1, competition normally establishes
price reasonableness, and when contracting on a firm-fixed-price basis occurs, the
proposed prices usually satisfy the requirement to perform a price analysis. The
solicitation for the project was open to the four contractors with existing multiple award
task order contracts, and each submitted a firm-fixed-price proposal. Because multiple
proposals were submitted and competition can establish price reasonableness, we believe
the risk associated with the lack of supporting documentation for the cost estimate in the
FSRM Program Plan was mitigated.

Funds Distributed Timely
Headquarters, USACE personnel distributed Recovery Act Funds to USACE, Huntsville
Center in a timely manner, and the funding authorization documents correctly included a
Recovery Act designation consistent with OMB’s guidance. Headquarters, USACE
personnel transferred $48,356,000 of Recovery Act funds to USACE, Huntsville Center
on May 26, 2009. Headquarters, USACE personnel designated $11,550,000 of these
funds for the Repair Nutrition Care Division project. The cost of this project was
$9,696,518, including contracting costs of $9,255,853 and contingency costs of
$440,665. The bid savings amount of $1,853,482 ($11,550,000 minus $9,696,518) was
reprogrammed to Project No.44, “Modernize Gentry Clinic” at Fort Leavenworth,
Kansas, in the amount of $1,124,163 and to Project No. 46, “Modernize Medical
Laboratory” at Fort Leavenworth, Kansas, in the amount of $729,319. The use of the bid

                                            2

savings is in accordance with May 7, 2009, guidance 1 from the Under Secretary of
Defense (Comptroller), which states that the Components should apply their management
discretion to use bid savings for offsetting the cost growth in other projects regardless of
location.

Initial Execution Adequate
USACE, Huntsville Center personnel adequately performed the initial execution of the
project. In our evaluation of initial execution, we determined that USACE, Huntsville
Center personnel competitively solicited and awarded the task order and that it contained
the required FAR clauses for Recovery Act contract actions. USACE, Huntsville Center
contracting personnel awarded a firm-fixed task order, valued at $9.3 million, on
September 15, 2009. USACE, Huntsville Center personnel determined that John J. Kirlin
Special Projects, LLC, provided the best value, and the contractor’s price proposal was
fair and reasonable. We reviewed the Central Contractor Registration Web site and
determined that John J. Kirlin Special Projects, LLC, is a registered contractor. We also
reviewed the Excluded Parties List System Web page and determined the contractor was
not listed as an excluded party.

USACE, Huntsville Center personnel properly recorded contract actions to meet the
Recovery Act’s reporting requirements. The OMB Memorandum M-09-15, “Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
April 3, 2009, requires the reporting of Recovery Act-funded actions into the Federal
Procurement Data System and the public announcement of these actions on the Federal
Business Opportunities Web site. Contracting personnel properly reported the contract
award in the Federal Procurement Data System and announced the pre-solicitation and
task order award on the Federal Business Opportunities Web site. Additionally, USACE,
Huntsville Center contracting personnel included all applicable FAR clauses required by
Recovery Act implementation guidance, including those for whistleblower protection
reporting, the Davis Bacon Act, and the Buy American Act.

Contractor Reported Required Information
The contractor, John J. Kirlin Special Projects, LLC, reported the recipient information
required by the Recovery Act. For the second quarter of FY 2010, the contractor
reported the number of jobs created and total dollar value of the project to
www.federalreporting.gov as required by FAR clause 52.204-11, “American Recovery
and Reinvestment Act—Reporting Requirements.” We validated that the contractor-
reported data was available for public viewing at www.recovery.gov.




1
 Office of the Under Secretary of Defense (Comptroller) Memorandum, “Project Cost Variations During
Execution of American Recovery and Reinvestment Act Expenditure Plans for Infrastructure Investments,”
May 7, 2009.


                                                  3

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. Controls over the Recovery
Act project were generally adequate. We will provide a copy of the memorandum to the
senior official in charge of internal controls for Headquarters, USACE.

Audit Standards
We conducted this audit from October 2009 through May 2011 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

Audit Methodology
We audited the planning, funding, initial execution, and tracking and reporting of the
Repair Nutrition Care Division project at Fort Carson. We interviewed personnel from
Great Plains Regional Medical Command; Office of the Chief Financial Officer–
TRICARE Management Activity; USACE, Huntsville Center; and the Facilities
Management Branch, Fort Carson. We reviewed project requirement and construction
documentation, including the contract files and the DD Form 1391. We performed onsite
inspections of the project location to verify project justification. We reviewed Federal,
DoD, and Army guidance. Although we determined that the contractor complied with
FAR clause 52.204-11, we did not validate the data that the contractor reported to the
www.Recovery.gov Web site, at this time. We plan to address the adequacy of recipient
reporting in a future DoD Office of Inspector General report.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, Central
Contractor Registration, Excluded Parties List System, and Federal Business
Opportunities. We also relied on Excel spreadsheets and computer processed cost
estimates created by Army personnel. We compared data generated by each system with
the appropriate DoD expenditure plans, funding authorization documents, or project and
contracting documentation to support the audit conclusions. We determined that the data
were sufficiently reliable for the purposes of our report.




                                            4

Use of Technical Assistance
Before selecting DoD Recovery Act project for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DoD Office ofInspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed them to quantify the risk
based on expert auditor judgment and other quantitatively developed risk indicators.
QMAD used information collected from all projects to update and improve the risk
assessment model. Initially, QMAD selected 83 projects with the highest risk rankings;
auditors chose some additional projects at the selected locations. The Repair Nutritional
Care Division project is included in the 83 selected projects.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types oflocations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by the USACE.

Prior Audit Coverage
The Government Accountability Office, the DoD Office of Inspector General, and the
Military Departments have issued reports and memoranda discussing DoD projects
funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                                  tliL~
                                                  Alice F. Carey
                                                  Assistant Inspector General
                                                  Readiness, Operations, and Support




                                            5

